No. 19-

the
fpupretne court of tbe littiteb iptatee
—womb•"Pt.t.i.""N•41""-BRADLEY WILLIAM KENNEDY,
Petitioner,
v.

STEPHEN MORRIS, WARDEN (ASPC EYMAN COMPLEX);
MARK BRNOVICH, ATTORNEY GENERAL
FOR THE STATE OF ARIZONA,

Respondents.
On Petition for a Writ of Certiorari to the
United States Court of Appeals for the Ninth Circuit
PETITION FOR A WRIT OF CERTIORARI
ANDERS ROSENQUIST

COUNSEL OF RECORD
FLORENCE BRUEMMER

ROSENQUIST & ASSOCIATES
42104 N. VENTURE DRIVE, STE. A122
ANTHEM, AZ 85086
(480) 861-7115
ROSENQUISTLEGAL@GIVIAIL.COM

MARCH 19, 2020
SUPREME COURT PRESS

•

(888) 958-5705

COUNSEL FOR PETITIONER
•
BOSTON, MASSACHUSETTS

1

QUESTIONS PRESENTED
Whether Bradley Kennedy's petition for a writ
of habeas corpus is time barred under the one-year
statute of limitations set forth in the anti-terrorism
& effective death penalty act of 1996 ("AEDPA")?
Whether Bradley Kennedy is entitled to relief
pursuant to the Due Process Clause of the 14th Amendment because he was convicted without any plausible
evidence of a critical element of the crime, and because
of inadmissible prejudicial evidence?
Whether the cumulative effect of various trial
errors so infected Bradley Kennedy's Trial with unfairness as to make his conviction a denial of Due Process?
Whether Bradley Kennedy's sentence violations
the 8th Amendment's prohibition against cruel
and unusual punishment?

11

PARTIES TO THE PROCEEDINGS
Petitioner
Bradley William Kennedy

Respondents
Stephen Morris, Warden
(ASPC Eyman Complex)
Mark Brnovich,
Attorney General for the State of Arizona,

111

LIST OF PROCEEDINGS
United States Court of Appeals for the Ninth Circuit
No. 19-15480
Bradley William Kennedy, ADC #211800, PetitionerAppellant v. Gerald Thompson, Warden (ASPC Eyman
Complex); Attorney General for the State of Arizona;
Charles L. Ryan, Respondents
Date of Final Order: October 25, 2019
Date of Rehearing Denial: December 20, 2019

United States District Court for the District of Arizona
No. CV-17-04300-PHX-GMS
Bradley William Kennedy, Petitioner v. Gerald
Thompson, Et Al., Respondents.
Date of Final Order: March 8, 2019

United States District Court for the District of Arizona
No. CV-17-04300-PHX-GMS (ESW)
Bradley William Kennedy, Petitioner v. Charles Ryan,
Et Al., Respondents.
Date of Final Order: September 18, 2018

iv
TABLE OF CONTENTS
Page
QUESTIONS PRESENTED
PARTIES TO THE PROCEEDINGS

ii

LIST OF PROCEEDINGS

iii

TABLE OF AUTHORITIES

vii

PETITION FOR A WRIT OF CERTIORARI

1

OPINIONS BELOW

1

JURISDICTION

1

CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED

2

STATEMENT OF THE CASE

4

Background

5

Summary

6

Evidence

6

REASONS FOR GRANTING THE PETITION

24

KENNEDY'S PETITION FOR A WRIT OF
HABEAS CORPUS PURSUANT TO 28 U.S.C.
§ 2254 Is NOT BARRED BY THE AEDPA's
24
STATUTE OF LIMITATIONS
KENNEDY IS ENTITLED TO RELIEF PURSUANT
TO THE DUE PROCESS CLAUSE OF THE 14TH
AMENDMENT BECAUSE HE WAS CONVICTED
WITHOUT ANY PLAUSIBLE PROOF OF A CRITICAL ELEMENT OF THE CRIME AND BECAUSE
27
OF INADMISSIBLE PREJUDICIAL EVIDENCE.

V

TABLE OF CONTENTS — Continued
Page
III. THE CUMULATIVE EFFECT OF VARIOUS
TRIAL ERRORS SO INFECTED KENNEDY'S
TRIAL WITH UNFAIRNESS AS TO MAKE HIS
30
CONVICTION A DENIAL OF DUE PROCESS.
Improper 404(b) Evidence.

31

Confusion of Judge.

33

Confusion of the Jury.

33

Prosecutor vouching.

34

Prosecutorial Misconduct.

34

IV. KENNEDY'S SENTENCE IS A VIOLATION OF
THE 8TH AMENDMENT'S PROHIBITION AGAINST
34
CRUEL & UNUSUAL PUNISHMENT
CONCLUSION

36

vi
TABLE OF CONTENTS — Continued
Page
APPENDIX TABLE OF CONTENTS
OPINIONS AND ORDERS
Order of the United States Court of Appeals for
la
the Ninth Circuit (October 25, 2019)
Order of the United States District Court for the
District of Arizona (March 8, 2019)
3a
Judgment in a Civil Case (March 8, 2019)

9a

Report and Recommendation of the United States
District Court for the District of Arizona
11a
(September 18, 2018)
REHEARING ORDER
Order of the United States Court of Appeals for
the Ninth Circuit Denying Petition for
Reconsideration (December 20, 2019)

21a

vii
TABLE OF AUTHORITIES
Page
CASES
Baggett v. Bullitt,
377 U.S. 360, 84 S.Ct. 1316,
12 L.Ed.2d 377 (1964)

25

Donnelly v. DeChristoforo,
416 U.S. 637 (1974)

31

Ewing v. California,
538 U.S. 11 (2003)

35

Harmelin v. Michigan,
501 U.S. 957 (1991)

35

Harper v. Ercole,
648 F.3d 132 (2nd Cir. 2011)

25

Holland v. Florida,
560 U.S. 631, 130 S.Ct. 2549 (2010)

25

Holmberg v. Armbrecht,
327 U.S. 392, 66 S.Ct. 582,
90 L. Ed. 743 (1946)

25

In re Winship,
397 U.S. 358, 90 S.Ct. 1068,
25 L.Ed.2d 368 (1970)

28

Lopez v. Trani,
628 F.3d 1228 (10th Cir. 2010)

25

May v. Ryan,
245 F.Supp.3d 1145 (D. Ariz. 2017)

29, 30

Pace v. DiGuglielmo,
544 U.S. 408 (2005)

26

Shepard v. United States,
290 U.S. 96 (1933)

31

vii'

TABLE OF AUTHORITIES—Continued
Page
State v. Hazlett,
205 Ariz. 523, 73 P.3d 1258 (App. 2003)

29

State v. Hyde,
186 Ariz. 252, 921 P.2d 655 (1996)

33

State v. Mills,
196 Ariz. 269, 995 P.2d 705 (App. 1999)

33

State v. Terrazaz,
189 Ariz. 580, 944 P.2d 1194 (1997)

33

Thomas v. Hubbard,
273 F.3d 1164 (9th Cir. 2002)

30

United States v. Preston,
873 F.3d 829 (9th Cir. 2017)

31

Vachon v. New Hampshire,
414 U.S. 478 (1974)

28

CONSTITUTIONAL PROVISIONS
U.S. Const. amend. VIII
U.S. Const. amend. XIV

i, 2, 34, 35
passim

ix
TABLE OF AUTHORITIES—Continued
Page
STATUTES
28 U.S.C. § 1254(1)

1

28 U.S.C. § 2244(d)

24

28 U.S.C. § 2254
A.R.S. § 13-3551(10)
A.R.S. § 13-3551(5)
A.R.S. § 13-3553
A.R.S. § 13-604.01

1, 2, 24
28
4, 22
3, 22, 28
34

Anti-Terrorism & Effective Death Penalty Act
i, 24, 25, 26
of 1996
JUDICIAL RULES
Fed. R. Evid. 404(b)

31, 32, 33

1

PETITION FOR A WRIT OF CERTIORARI
Petitioner, Bradley William Kennedy (hereinafter "Petitioner" or "Mr. Kennedy" or "Kennedy"
or "Defendant.") respectfully prays a writ of certiorari
issue for review of his case.

OPINIONS BELOW
A copy of the Order of the United States Court of
Appeals for the Ninth Circuit denying Kennedy's
Motion for Reconsideration and Motion for Reconsideration en banc is reproduced at App.21a. A copy
of the Order of the United States Court of Appeals
for the Ninth Circuit denying Petitioner's request for
a Certificate of Appealability is reproduced at App.la.
A copy of the Amended Order of the United States
District Court for the District of Arizona denying and
dismissing Kennedy's Petition for a Writ of Habeas
Corpus pursuant to 28 U.S.C. § 2254 is reproduced at
App.3a.

JURISDICTION
The date on which the United States Court of
Appeals, Ninth Circuit, decided this case was October
25, 2019. The Motion for Reconsideration and Motion
for Reconsideration en banc was denied on December
20, 2019. The jurisdiction of this Court is invoked
under 28 U.S.C. § 1254(1).

2

CONSTITUTIONAL AND
STATUTORY PROVISIONS INVOLVED
CONSTITUTIONAL PROVISIONS
United States Constitution Amendment VIII
In all criminal prosecutions, the accused shall enjoy
the right to a speedy and public trial, by an impartial jury of the state and district wherein the crime
shall have been committed, which district shall have
been previously ascertained by law, and to be
informed of the nature and cause of the accusation;
to be confronted with the witnesses against him; to
have compulsory process for obtaining witnesses
in his favor, and to have the assistance of counsel
for his defense.
United States Constitution Amendment XIV
All persons born or naturalized in the United
States, and subject to the jurisdiction thereof, are
citizens of the United States and of the state
wherein they reside. No state shall make or enforce
any law which shall abridge the privileges or
immunities of citizens of the United States; nor
shall any state deprive any person of life, liberty,
or property, without due process of law; nor deny
to any person within its jurisdiction the equal
protection of the laws.
FEDERAL STATUTES
28 U.S.C. § 2254
28 U.S.C. § 2244(d)

3

(1) A 1-year period of limitation shall apply to an
application for a writ of habeas corpus by a
person in custody pursuant to the judgment of a
State court. The limitation period shall run from
the latest of—
the date on which the judgment became final
by the conclusion of direct review or the
expiration of the time for seeking such review;
the date on which the impediment to filing an
application created by State action in violation of the Constitution or laws of the United
States is removed, if the applicant was prevented from filing by such State action;
the date on which the constitutional right
asserted was initially recognized by the
Supreme Court, if the right has been newly
recognized by the Supreme Court and made
retroactively applicable to cases on collateral
review; or
the date on which the factual predicate of the
claim or claims presented could have been
discovered through the exercise of due
diligence.
ARIZONA REVISED STATUTES
A.R.S. § 13-3553
A. A person commits sexual exploitation of a
minor by knowingly:
1. Recording, filming, photographing, developing or duplicating any visual depiction
in which a minor is exploitive exhibition
or other sexual conduct.

4

2. Distributing, transporting, exhibiting,
receiving, selling, purchasing, electronically transmitting, possessing or
exchanging any visual depiction in which
a minor is engaged in exploitive exhibition or other sexual conduct.
A.R.S. § 13-3551(5) defines "exploitive exhibition"
as follows:
The "actual or simulated exhibition of the
genitals or pubic or rectal areas of any
person for the purpose of sexual stimulation
of the viewer."
A.R.S. § 13-3551(10) defines "sexual conduct" as
follows:
Actual or simulated: (a) Sexual intercourse,
including genital-genital, oral genital, analgenital or oral-anal, whether between persons
of the same or opposite sex. (b) Penetration
of the vagina or rectum by any object except
when done as part of a recognized medical
procedure. (c) Sexual bestiality, (d) Masturbation for the purpose of sexual stimulation of
the viewer. (e) Sadomasochistic abuse for the
purpose of sexual stimulation of the viewer.
(f) Defecation or urination for the purpose of
sexual stimulation of the viewer.

STATEMENT OF THE CASE
Bradley Kennedy was charged and convicted of
crimes he did not commit, and sentenced to 119 years
in prison.

5

A. Background
Kennedy was married and had a son. His marriage eventually ended up with a divorce, where he
was ordered to pay a substantial amount of child
support among other costs. An issue arose in arrears
of child support. He had paid $11,000.00 toward the
arrears of $26,000.00. The Judge ordered him to
produce documents that show his income and expenses.
When he failed to produce the documents, the Judge
ordered him to jail. He spent Thanksgiving in jail
before he was released.
After the divorce but before the charges leading
to the convictions were filed, Kennedy was introduced to a young woman. They were married three
weeks later, in November 1994. Their life together
was good for a long time, until it started to deteriorate, and in 2003 she decided to divorce him. There
was a child support case involving Kennedy's son,
pending in the Superior Court of Maricopa County,
Arizona, before Judge David Roberts. Attorney Sterling
Threet represented his ex-wife in the case, and Mr.
Kennedy represented himself. From 1998 to late
1999, Judge Roberts presided over the divorce case,
and was handling the child support case.
In 2003 Kennedy was charged with seven counts
of "Sexual Exploitation of a Minor," class 2 felonies,
dangerous crimes against children, (Counts 1-7), and
1 count of Forgery, (Count 8), a class 4 felony, and 1
count of Harassment, (Count 9), which was later
dismissed. The charges were based on a series of
events that occurred three years earlier, in 1999.
Record on Appeal ("ROA"), Item 77.

6

Summary
In November and December of 1999, envelopes
were slipped through mail slots of office doors. They
contained nude photographs of a child, along with writings. During the same time, small stickers containing
disparaging remarks against Judge Roberts, were
placed in various locations near his home. The photographs, writings, and stickers, were turned over to
the Maricopa County Sheriffs Office Harassment Unit.
After a year, the Sheriffs office closed the investigation.
In 2003, Mr. Kennedy was arrested for possessing a
gun in the Arizona State University library. The
Sheriffs office opened the investigation into the
harassment of Judge Roberts. A trial was held, and
Mr. Kennedy was found guilty of seven counts of
Sexual Exploitation of a Minor. Each count represented
a single photograph. The seven counts were run consecutive, which caused Mr. Kennedy to be sentenced to
119 years in prison.
Evidence
The following excerpts from the trial transcripts
support Mr. Kennedy's request for review. They
prove Mr. Kennedy is not guilty of the crime of
"Sexual Exploitation of a Minor."
1. Trial Day Three
Police officer Stephanie Heckel testified, on November 11th, 1999 she spoke with Tammy Radmacher, who
gave her a sticker she found. It had disparaging
remarks about Judge Roberts. Police officer Richard
Elmore testified, on October 18th, 1999, he spoke
with Claudia Alvarado, who found an envelope that
was put through the mail slot in the door of her office.

7

The envelope contained three Polaroid photographs.
The photographs were of a nude child. Barbara Meyerson
testified, on October 14th, 1999, an employee showed
her photographs she found in an envelope wedged in
the office door. The photographs were of a nude child.
RT-8/16/06.
2. Trial Day Four
Rebecca Cahill testified, she found the photographs
given to Barbara Meyerson. Donna Millet, whose father
is Judge Roberts, testified, on September 1999, she
found a sticker. The sticker said, "David Lucifer
Roberts." RT-8/17/06 at 28. Claudia Buelna testified,
in 1999 a letter was put through the mail slot in the
door to her office. It contained photographs of a nude
child. Mather Willis testified, in 1999, while cleaning
an office next to attorney Sterling Threet's office, he
found an envelope that was put through the mail slot
of the office door. (Threet represented Mr. Kennedy's
ex-wife in the divorce case). It contained four photographs of a nude child. A letter in the envelope stated,
"D.L. Roberts, (his address), Joe Arpaio is an asshole
for prosecuting C. Shank, Save Chris or keep him
from implicating us. Trade Spencer D's Oregon, Portland, trophies for Garrett and Landon sleep over
friends' pic's, Enjoy Little Boy Blue, S.R. Threet."
RT-8/17/06 at 56 & 62). (This letter was the only
suggestion child pornography was involved).
Sabrina Walker, crime lab specialist, testified,
she analyzed fingerprints on evidence found in 1999.
She compared two latent prints with Mr. Kennedy's
fingerprints. There was no match. RT-8/17/06 at 9192. Police officer Kelly Boyer testified, on September
18th, 1999, she went to Judge Robert's home to pick

8

up three typewritten stickers his neighbors found and
gave to him.
Detective Lignoski testified, in September 1999
he was assigned to the "Threats Management Unit"
of the Sheriff's office. He assisted Det. Tucker in the
investigation of the harassment of Judge Roberts.
They worked on the case from 1999 for a year. The
investigation was closed, because they did not have
enough evidence against Kennedy to move forward.
RT-8/17/06 at 155.
3. Trial Day Five
Glen West testified, in 1999 he found a typed
sticker. It said, David Lucifer Roberts is a supporter
of Satan. He threw it away. RT 8/21/06 at 13. Sherry
Sanders testified, in 1999 she worked for Bank One
First USA in the credit card department. The Prosecutor showed her a turndown letter Judge Roberts
received, and an Application for credit. She compared
a number code on both, and they matched. RT
8/21/06 at 30. The name on the application was
Judge Robert's, with his address. The application
was mailed to "Able Family Dentistry," and signed
by Bradley K. for Robert Family Trust. RT 8/21/06 at
32. In cross examination, Ms. Sanders admitted she
could not tell who sent out the application, because
"we use different venders to send out applications to
millions of individuals, businesses, and homes."
Lt. Tucker testified, he submitted two items for
fingerprint and DNA analysis. Alan Kreitl, a forensic
document examiner, determined none of the typed
notes came from the typewriter taken from Mr.
Kennedy's home, and he could not determine if
Kennedy's handwriting matched the exemplars pro-

9

vided. RT 8/21/06 at 64-65. Stacie Raymond, a forensic
scientist, testified, she tested samples of hair and
concluded Kennedy 'could be excluded' as a contributor
to the DNA collected from evidence. RT 8/21/06 at 8283. Scott Milne, a criminalist, testified, he analyzed
an envelope on June 20th, 2006, and Kennedy 'was
excluded' from being a possible contributor to the
DNA on the envelope. RT 8/21/06 at 103.
Lt. Tucker testified. During questioning by the
Prosecutor, he diverted to another case. He testified,
. . . the name GGG was on a sticker found by a person
in 1999. The prosecutor asked, " . . . that's an investigation that is was being handled by Detective
Giesel of the Mesa Police Department." He answered,
"That's correct." The Prosecutor asked, "Are you
familiar with who (GGG) is." He responded, "I was
not a participant in that investigation, but based on
the media attention and my conversations with Mesa
Police Department, I am." The prosecutor asked,
"How are you familiar with that." He responded, "I
learned both from the media attention and from the
Mesa Police Department, that (GGG) was a young
female child who disappeared and has not been found
nor seen. Presumed homicide victim, I understand."
RT 8/21/06 111-112.
4. Trial Day Six
Lt. Tucker continued testifying. He said the last
photographs were found on November 29th, 1999, in
an envelope that also contained a writing. The writing
created a suspicion, attorney Threet and Judge Roberts
were trading child pornography. RT 8/22/06 at 26. He
said, "The investigation was ultimately discontinued,

10

because no direct link to Kennedy was ever found."
RT 8/22/06 at 35.
5. Trial Day Seven
Wendy Dutton, a forensic interviewer and counselor at St. Joseph's Childhelp Children's Center,
testified, On February 14th, 2003, she interviewed
the son of Joann Kennedy, (Kennedy's step-son). RT
8/24/06. He was 7 years old at the time of the
interview, and 4 years old at the time the incidents,
in 1999. She questioned him about photographs that
may have been taken of him while he was naked. She
was asked, "Did he give you disclosure about any
memory of having any photographs taken of him
being naked." She said, "No, he did not." RT 8/24/06
at 16. Dutton was asked, "Did he give you any disclosure about any inappropriate touching or of sexual
nature by his father." Dutton answered, "No, he did
not." RT 8/24/06 at 17.
A year later, on March 17th, 2004, Dutton interviewed the boy a second time. The interview was
requested by a police officer, after Joann told the
officer, "Her son said things about his father." Dutton
said, before the interview she reviewed a video of her
first interview of the boy, and a transcript of defense
counsel's interview of the boy. In the second interview
he said, "There was something he needed to tell you
about my dad." She said, "He basically told me that
he had a memory of his father . . . taking pictures of
him." "He described the camera as being a camera
that had a handle where the pictures pop out." RT
8/24/06 at 18-19; 41. The Prosecutor asked Dutton,
"Did you ask him how he knew about the photographs
if he was asleep." Dutton said, "Yes, I did. He said,

11

" . . . he saw the flashes." In cross-examination Dutton
testified," . . . the child told her about a lot of things
he had done . . . and then, all of a sudden, out of the
blue, he said, "I also need to tell you something
about my dad." RT 8/24/06 at 34,. She said, he never
disclosed this information in the first interview.
RT 8/24/06 at 38. Defense counsel said, "You've
got concerns about that don't you." Dutton answered
"Yes." "About what mother is telling the boy." Dutton
said, "Yes." She asked him, "Did your mom tell you
what to say," he said, "yeah." Dutton said, she thought
either the child had been coached or the information
could have been out of a source monitoring problem.
RT 8/24/06 at 42-43.
Brandi Payne, (daughter of Kennedy's wife Joann
who lived with them) testified, at the time of the
incident in 1999, she was 15 years old and her
brothers were 4 and 7; Kennedy's son from a previous
marriage lived with his mother in Utah, and would
spend summers with them; Joann and Kennedy were
married in November 1994, and had two children.
RT 8/24/06 at 62-65. She was asked if Kennedy ever
expressed any opinions or attitudes about Judge
Roberts while his son was living with them. She
answered, "Not that I can remember." RT 8/24/06 at
68. She testified, her mother had problems with drugs
and alcohol. RT 8/24/06 at 76. In cross-examination
she testified, prior to the police contacting her in
2003, her mother was planning to divorce Kennedy.
RT 8/24/06 at 115 & 126; Joann filed for divorce on
February 21st 2003; She said, "There was no question
Joann wanted full custody of the children, and would
do anything to get the kids." RT 8/24/06 at 129.

12

Judge Roberts testified. He said he handled the
divorce case of the Kennedy's for 2 years, starting in
1998; He ordered Kennedy to pay attorney's fees; The
ruling was appealed, and the appellate court found
Kennedy was in arrears of child support; He ordered
Kennedy to produce his bank statements to determine
his ability to pay, (Kennedy had paid $11,000.00
towards the $26,000.00 he owed); When he did not
produce the bank statements, he ordered him to jail.
RT 8/24/06 at 142-146.
On September 18th, 1999, Judge Roberts contacted
the Mesa Police Department about typewritten stickers
people in his neighborhood gave him. The writing on
the stickers stated, "David Lucifer, L Roberts, gave
his home address, phone number, Social Security
number, date of birth, white male, age 64, white
Suburban, license number, Buick four-door."
6. Trial Day Eight
Sgt. Allen Romer testified, on January 26th, 2003,
he became involved in the investigation of Kennedy;
He worked on the case with Sgt. Steve Bailey and Lt.
Ray Jones; He was contacted by ASU (Arizona State
University) officials, in reference to Kennedy having
a gun in his possession while in the Arizona State
University Library; He arrested him. (Even though
Kennedy had a permit for the gun). On January 30th,
2003, He, Det. Whitney, and Lt. Jones met with
Joann Kennedy (Kennedy's wife at that time), and
Kennedy's attorney, Mr. Forshey, at his office. They
did not mention the investigation or photographs at
the meeting. RT 8/24/06 at 36. After the meeting, Joann
invited the officers to her home, and gave them a tour.

13

Sgt. Romer stated, on February 3rd, 2003, He, Det.
Tucker and Det. Bailey arranged a second meeting
with Joann, at Forshey's office. At the meeting they
told Joann about the investigation, and showed her
the pictures collected in 1999. Joann became visibly
shaken and crying. Mr. Forshey ended the meeting,
and told Joann to find an attorney. He recommended
Alan Simpson. RT 8/24/06 at 45-46.
After leaving Forshey's office, they decided to
talk to Brandi. The officers found out about her from
a photograph in Joann's home. At the meeting, they
discussed general topics, but did not mentioned the
investigation or photographs. RT 8/24/06 at 44-45.
On February 14th the officers went to Joann's house
a second time. Sgt. Romer stated, "We were invited
by Joann Kennedy's counsel, Alan Simpson, to go to
her home and pick up items she had collected." She
gave them a Polaroid camera, and typewriter Kennedy
used in his dental practice. RT 8/24/06 at 45-46. The
Polaroid camera was sent to the Polaroid company
for analysis. RT 8/24/06 at 75. (No evidence was
obtained from the Polaroid Company). Sgt. Romer
was asked, "If Brandi had contact with her mother
before they interviewed her." He said, "Brandi had
informed me that she had a phone call from her
mother prior to us finding her . . . " RT 8/24/06 at 79.
Sgt. Romer stated, during their second visit with
Joann at her house, "Joann's demeanor was very open
and receptive . . . I would say it would be fair . . . from
the last time I saw her, she looked like she was stunned
when we showed her the pictures, . . . she looked very
upset and had been crying . . . So when we went to
see her this time it was completely different. Well
composed lady at that time . . . " RT 8/24/06 at 80-81.

14

Joann Kennedy testified. She is still married to
Kennedy; She met him on November 11th, 1994;
Three weeks later they were married; She has two
children from a previous marriage, one of them was
Brandi; Brandi was born in 1984; She had a son from
a prior marriage; Kennedy had one son from a prior
marriage that lived in Utah with his mother; His son
would stay with them for extended periods of time;
Kennedy and her had two children, a boy and a girl;
The boy was born on September 2nd, 1995, and was
4 years old at time of the incident in 1999. RT
8/24/06 at 89-93. When she was married to Kennedy,
he was involved in a child support case with his
previous wife; Judge Roberts handled the support
case; Kennedy filed complaints against Judge Roberts.
RT 8/24/06 at 98-104; Kennedy was in a motorcycle
accident, and she decided not to leave him at that
time, because of his injuries. RT 8/24/06 at 105; She
filed for divorce on February 21st, 2003.
In cross examination, Joann admitted to abusing
drugs and alcohol, and stealing drugs from Kennedy's
dental supplies. When asked, "Have you ever lied to
anybody to support your drug and alcohol abuse," she
said, "Of course." Joann admitted, "She was convicted
of felony endangerment of her children, and CPS
(Child Protective Services) placed her children with a
relative." RT 8/24/06 at 162-163. She said, she was
seeking full custody of the children along with all the
property. RT 8/24/06 at 176.
7. Trial Day Nine
Sgt. Bailey, case agent in the Sheriff's office
Threats Management Unit, testified. He was at the
first meeting with Joann, at attorney Forshey's office.

15

When Joann was told about the investigation and
saw the photographs, "she immediately became emotional, put her hands to her face, was visibly shaken
...
After the meeting the officers interviewed Brandi.
She told them, "I know about the photographs . . .
Polaroids," The officers had not told her about the
investigation or showed her the photographs. On
February 12th, 2003, they interviewed Brandi a second
time. This time they showed her the photographs. RT
8/28/06 at 94-103. She said they looked similar to
pictures her mother had showed her. (Joann had
testified she destroyed picture she said she found in
1999). Testimony of several witnesses described the
various depictions in pictures Joann said she found.
On February 14th, 2003 Joann took two of her
children to Childhelp Children's Center, to be interviewed by a forensic counselor, (Wendy Dutton). On
February 26th, 2003 Joann contacted the officers and
told them Kennedy had made admissions about the
photographs she found. On June 29th, 2004 they
went to Joann's house again to pick up more items
she found while moving.
8. Trial Day Ten
Rhonda Kennedy (Kennedy's sister) testified,
Joann had shown her photographs she found (in 1999).
RT 8/29/06. Defense counsel, after showing her the
photographs in evidence, asked her, "Have you ever
seen those before." Rhonda said, "No that I am aware
of, no." She then stated, "One thing that is in my
head is that she (Joann) had told me different things
she saw as a witness, . . . she created an image in my
head." RT 8/29/06 at 37-38. She said Joann was

16

talking to her before the trial, and "She described to
me things she had seen, So that's what makes it
more confusing for me." RT 8/29/06 at 38. Joann told
her about the photographs the police showed her in
2003, and said, "that is where she got her information."
RT 8/29/06 at 43. Rhonda said, "the photographs she
showed her were a lot further away and did not appear
to be pornographic to either her or anyone in her
family." RT 8/29/06 at 46, 49-50. Rhonda said, "The
way I remember it is more kind of far away like a
child sleeping and maybe a picture was taken, not
like anything you'd think of say pornographic or in
that category." RT 8/29/06 at 40-41. When Rhonda
was asked, "Did you know it was a boy because you
could see a penis in the photographs you saw in
1999," she responded, "Yeah that would be right." RT
8/29/06 at 41. Rhonda stated, "Joann has been putting
images in her head about the description of the
photos, what they look like." "She went as far as to
tell me in one of the pictures the little boy had an
erection." RT 8/29/06 at 45). When asked, "What else
did she tell you about the pictures," Rhonda answered,
"She described the different positions they were in,"
and "I just believed her because she was the mom."
RT 8/29/06 at 45-46. Rhonda also stated, in response
to the question, " . . . and as you sit here today and
you look at those photos, those aren't the ones that
she showed you." Rhonda answered, "I do not recognize
those." RT 8/29/06 at 46.
Sgt. Bailey continued his testimony. He testified,
at Brandi's first interview, "she popped-up and said,
I know about the photograph." He asked what photographs, and she said, "the Polaroids." RT 8/29/06 at
58. When he asked her to describe what was in the

17

photographs she responded, "it was pictures of her
brother covered up with a dark blanket, with his
head covered up." RT 8/29/06 at 59. On February 12th,
2003, Brandi went to the Sheriffs office, where Sgt.
Bailey showed her the photographs. She told them,
"her mom had called her that day. RT 8/29/06 at 74.
Sgt. Bailey asked her how she knew it was her
brother in the photograph, she said, "My mom told
me." RT 8/29/06 at 75.
Sgt. Bailey was asked questions from the jury.
Question (1), "How did you determine Little Boy Blue
was a reference to child pornography." Sgt. Bailey
answered, "Prior to my—if I can answer this, prior to
my employment with the Maricopa County Sheriffs
office, I worked for United States Postal Inspection
Service where I assisted on a number of child pornography cases. In those cases, offenders will normally
at some point refer to or consistently refer to child
pornography as a slang term that the two of them
understand. They don't write letters to each other
saying I am sending you these nude photos of this
boy, I hope you don't get caught. They use nursery
rhymes sometimes or vague descriptions that those
two know what they're talking about, and a lot of
times it's talked about over the internet." Question
(2), "The second part was, the blue, in reference to
the color of the blanket in the photo?" Sgt. Bailey
answered, "I originally considered that when I looked
at it, but the blue in my opinion, when I look at that,
was not prominent enough in the picture to fit that,
and because of my experience earlier, I believe Little
Boy Blue was a direct reference to child pornography."
RT 8/29/06 at 151-152. Question (3) (Related to Kennedy's statements, Joann said he made to her). Sgt.

18

Bailey said, "I originally talked to her on the 11th, and
then again on the 13th. She had two conversations
with the defendant, one before my telephonic interview
with her on 2/26, where she mentioned specifically the
magic marker that he had stated. Prior to my second
interview, I believe she had a chance to discuss this
with the defendant, where he mentions taking the
photographs, and they were of their son." RT 8/29/06 at
154-155. Question (4), "Was it before or after February
21st, when Joann filed for divorce?" Sgt. Bailey
answered, " . . . at that time, my sole focus was the
child pornography, where they had been disseminated,
if any child at that point was in danger, and my
responsibility to superior court judges that were
listed in a number of those documents. I tried to
maintain my focus on the photographs, the boy and
the charges that would ultimately be charged." RT
8/29/06 at 155-156. The prosecutor asked, "You're
saying then that this Little Boy Blue designation is
from a nursery rhyme." Sgt. Bailey answered, "Little
Boy Blue would be common terms that pedophiles or
people who exchange child pornography would use."
The Prosecutor continued, "But, I mean, it's from the
Little Boy nursery rhyme and it is a code word for
what you're calling pornographers, child pornographers,
not in reference to the color of the bag." Sgt. Bailey:
"I didn't believe that, no." RT 8/29/06 at 157.
The parties entered into the following stipulations:
The pictures of the child found in 1999, could
not have been taken by the camera found in
Bradley Kennedy's home in 2003.
Dr. Burgoyne, psychiatrist, suffered from Alzheimer's disease and had passed away. Any

19

records he may have had regarding Joann
Kennedy had been destroyed.
3. Sue Lindley did a video interview of Kennedy's son from a prior marriage at Childhelp
Children's Center when he was 13 years old.
Based on her interview, she would testify:
The child would visit Brad (Kennedy) on
different occasions. He stated, "Things are
good with dad, and described all the things
they would do together, and the good advice
he gave him. He denied any bruises. Brad
would do dental work on him. He did not
like it when Brad got into arguments with
his stepmother Joann. If he did something
wrong, Brad would either send him to his
room or give him a swat. He said his dad
had never talked to him about something that
made him feel uncomfortable, and, Brad has
not wanted to teach him about something
that seemed odd.
The State rested. No witnesses were presented
by the defense.
No physical evidence presented at trial was
connected to Kennedy, and no testimony at trial
directly connected Kennedy to the evidence presented
at trial.
Defense counsel made a motion for a Directed
Verdict on the Sexual Exploitation of a Minor charges.
RT 8/29/06 at 168-194. Defense counsel argued the
person in the photographs was not doing any sex act
or anything of a sexual nature. That there was no
sexually suggestive pose, no inappropriate attire, no
suggestion of a willingness to engage in sexual activity,

20

and no sexually suggestive setting. He also argued
the photographs were not intended "for the sexual
stimulation of the view." RT 8/29/06 at 168-171. He
argued, the state's theory throughout the trial has
been that the pictures were meant to disgust someone
and harass or intimidate and threaten someone, not
to sexually stimulate them. RT 8/29/06 at 172.
The Court asked counsel, "Is it your position
that sexual stimulation must be positive. You asked
every witness if they were disgusted by it, and they
all said they were-had a response stimulated by the
pictures. You're arguing that sexual stimulation has
to be a pleasurable positive stimulation?" Defense
replied, "I am." RT 8/29/06 at 181-182.
The State responded, "Under defense counsel's
argument . .. but a photograph of an adult male having
sexual intercourse with a three-year old child would
not be pornography, as long as it doesn't fall into the
hands of a pervert. That's what he's saying; that we
have to prove that the person who saw the photograph
was sexually stimulated by the photograph. So, under
that argument, as long as that photograph doesn't
fall into the hands of somebody who gets sexually
stimulated in a positive excited manner, then it's not
child pornography, and that would mean that the
grossest, most disgusting images of sexual acts with
children would not be child pornography, and I
guarantee you that is not what the case law says." RT
8/29/06 at 182-183. "The fact that the child has an
erection shows the willingness to engage in sexual
activity." RT 8/29/06 at 185. "The state's theory of this
case and the evidence shows these photographs were
found in four different places. There were four different
places in which these thirteen photographs were

21

found. In three of those places, they were found
attached to David Roberts mail. In the fourth place,
there was a letter. That letter refers to Joe Arpaio
failing to prosecute Chris Shank, a very highly
publicized well-known prosecutor who was engaged
in sexual exploitation of a minor and sexual conduct
with a minor for that matter." "The language in that
letter referred to 'Little Boy Blue' which is a reference
to child pornography. The language in that letter
refers to photographs of the children of Judge Roberts
and Sterling Fleet." "It is obvious that the whole intent
behind those photographs is to make it look like
Judge Roberts was engaged in child pornography
and that he was engaged in the exchange of that
child pornography and that he was engaged in the
exchange of the child pornography with Sterling Fleet."
"The whole purpose was to make it look like he was
doing it and making it look like he was the bad
person." "Obviously, there's no way to show who was
going to receive these photographs. They could have
ended up in the hands of anybody, any pervert out
there." "Like I said, under the defendant's argument,
if that were true, then the worst, grossest acts we
could imagine would not be child pornography as
long as they don't fall into the hands of a pervert." "I
use the word pervert instead of pedophile. From my
experience as a sex crimes prosecutor, I know that
not all child molesters are pedophiles, so I am not
going to use the word pedophile; I am not going to
use the word child molester, I am going to use the
word pervert because I am referring to people who
get off from looking at photographs of child pornography." "Obviously, the fact that the witnesses in
this case were grossed out by the photographs, that
they didn't want to look at them, points out the fact

22

that they felt that there was something different about
these photographs. There was something worse than
just being a photograph of a child." RT 8/29/06 at
185-187.
Trial Day Eleven
The court denied the Motion for a Directed
Verdict, and Defense rested. RT 8/31/06 at 5, 23.
Closing Argument by the Prosecutor
"Revenge, retaliation, retribution. Was this defendant angry enough at Judge Roberts to actually sexually
exploit his own child, absolutely." RT 8/31/06 at 35.
"Defense counsel argued, the statute reads for the
purpose of sexually stimulating the viewer." "This
statute, . . . they have charged Bradley Kennedy under
is a statute that is intended for one person who
wants to send kiddie porn to another person so that
one or both can be sexually stimulated. And you all
are aware of those kind of situations. You have seen
those before. I'm sure you have heard of them before.
It doesn't fit in this case." RT 8/31/06 at 105. "This is
a threatening and intimidating and harassment of a
judge case. And these prosecutors and these detectives
know it. But they are trying to sell you a bag of
goods. Don't do it. Don't let them do it. It would be an
abomination. It would be unjust and unfair." RT
8/31/06 at 105. "So in regards to threats for the
purpose of sexually stimulation of the viewer," which
are required elements set forth in A.R.S. § 13-3553
and § 13-3551(5). and intimidation of the judge,
whether or not that was charged, is not something
you are allowed by law to consider, and that's your
jury instruction on page three. But I will tell you, the

23

State has never claimed that the defendant didn't
threaten and intimidate Judge Roberts. That doesn't
mean he is not guilty of sexually exploiting a child."
RT 8/31/06 at 106-107.
Defense counsel's closing argument was consistent
with his argument in the Motion for Directed Verdict.
Instructions were read, and the case went to the
Jury.
Trial day TWELVE, The jury asked the following
question: "Based on the definition of exhibition, do
we have to find beyond a reasonable doubt that Brad
Kennedy's 'intent' was for the purpose of sexual stimulation of the viewer?" The court responded, "Please rely
on the jury instructions in answering this question."
The jury found Kennedy guilty on all seven counts
of sexual exploitation of a minor, and the Forgery
charge. The seven verdicts for Sexual Exploitation of a
Minor, were based on seven photographs in evidence.
SENTENCING was held on November 17th, 2006. RT
11/17/06. The "Presentence Report" recommended the
sentences on counts 1-7 (Sexual Exploitation of a
Minor) run concurrent. The prosecution argued
Kennedy is paranoid and has serious mental health
problems, and sets out on a litany of allegations of
harassment against herself and Joann Kennedy, and
that Kennedy was a danger to society and Joann,
and to "Keep him locked up as long as we possibly
can." RT 11/17/06 at 48.
The court sentenced Kennedy to a total of 119
years in prison. Counts 1-7, 17 years, the presumptive,
and ran the sentences consecutive. Count 8 Forgery,

24

2.5 years, concurrent with count 1. ROA-335; RT11/17/06 at 66.

REASONS FOR GRANTING THE PETITION
I. KENNEDY'S PETITION FOR A WRIT OF HABEAS
CORPUS PURSUANT TO 28 U.S.C. § 2254 Is NOT
BARRED BY THE AEDPA's STATUTE OF LIMITATIONS.
Kennedy timely filed Direct Appeals in the Arizona
courts, which were denied. After two court appointed
attorneys failed to file a Post-Conviction Relief Petition
on his behalf, Kennedy filed a document pro se that
was construed as a Post-Conviction Relief Petition.
The Petition was denied on June 6, 2013. Kennedy
then filed a number of requests for various types of
relief. The last request was filed on March 10, 2015.
It was denied two years later, on February 15, 2017.
This sequence of events left Kennedy with no meaningful consideration of the errors in his case, and
spending the rest of his life in prison. Based on the
errors set out herein, Kennedy deserves to have his
case considered on the merits. The only barrier is the
federal statutory limitations, that should be tolled,
because the delays in his case were not caused by the
lack of diligence, and the claims he presented are
valid.
Kennedy acknowledges the AEDPA's limitation
period began running on June 6, 2013 (the day after
the court dismissed his PCR on June 5, 2013). See 28
U.S.C. § 2244(d). However, the AEDPA's limitation
period should not expire one year later, because
Kennedy is entitled to equitable tolling of the time

25

limitation from June 6, 2013 through his last filing
on February 15, 2017.
The AEDPA's one-year statute of limitations is
subject to equitable tolling in rare and exceptional
circumstances. Lopez v. Trani, 628 F.3d 1228, 122930 (10th Cir. 2010). Rare and exceptional circumstances
occur, when a prisoner is actually innocent, when an
adversary's conduct—or other uncontrollable circumstances—prevents a prisoner from timely filing, or
when a prisoner actively pursues judicial remedies
but files a defective pleading during the statutory
period. Id. Petitioner must diligently pursue his federal
habeas claims. Id While equitable tolling is warranted
only in "rare and exceptional circumstances," courts
do not apply its requirements mechanistically. Holmberg v. Armbrecht, 327 U.S. 392, 396, 66 S.Ct. 582,
90 L. Ed. 743 (1946) (observing that "[e]quity eschews
mechanical rules"). The exercise of a court's equity
powers must be made on a case-by-case basis, mindful
that specific circumstances, often hard to predict in
advance, could warrant special treatment in an
appropriate case. Harper v. Ercole, 648 F.3d 132, 136
(2nd Cir. 2011); Baggett v. Bullitt, 377 U.S. 360, 375,
84 S.Ct. 1316, 12 L.Ed.2d 377 (1964). The "flexibility"
inherent in "equitable procedure" enables courts to
meet new situations that demand equitable intervention, and to accord all the relief necessary to correct
particular injustices. Holland v. Florida, 560 U.S.
631, 649-50, 130 S.Ct. 2549, 2563 (2010). Courts of
equity exercise judgment in light of prior precedent,
but with awareness of the fact that specific circumstances, often hard to predict in advance, could
warrant special treatment in an appropriate case. Id
Generally, a litigant seeking equitable tolling bears

26

the burden of establishing two elements: (1) that he
has been pursuing his rights diligently, and (2) that
some extraordinary circumstance stood in his way.
Pace v. DiGuglielmo, 544 U.S. 408, 418 (2005). Kennedy's case is one such case in which equitable tolling
is appropriate. Exceptional circumstances in Kennedy's
case.
Kennedy received ineffective assistance of counsel
during his state post-conviction proceeding. Kennedy's
state post-conviction proceeding was dragged out for
years by two different appointed counsel that ultimately
ended up not filing a petition on Kennedy's behalf;
Kennedy's case was never reviewed on the merits;
Kennedy's sentence amounts to a death penalty. Also,
Kennedy diligently pursued his rights pro se in an
effort to obtain review of his case, even though his
filings were defective. The state court docket reflects,
between June 6, 2013 (start of AEDPA limitation),
and February 15, 2017, Kennedy filed documents
attempting to right the wrong he was dealt.
After application of equitable tolling from June
6, 2013 to February 15, 2017, Kennedy's Habeas
Petition filed on November 24, 2017 would be timely
under the AEDPA. Therefore, Kennedy is entitled to
equitable tolling, and having his case reviewed on the
merits.

27

H. KENNEDY Is ENTITLED TO RELIEF PURSUANT TO THE
DUE PROCESS CLAUSE OF THE 14TH AMENDMENT
BECAUSE HE WAS CONVICTED WITHOUT ANY
PLAUSIBLE PROOF OF A CRITICAL ELEMENT OF THE
CRIME AND BECAUSE OF INADMISSIBLE PREJUDICIAL
EVIDENCE.
The State did not present any plausible evidence
to support the seven charges of Sexual Exploitation
of a Minor. There was no physical evidence connecting
Kennedy to the crimes, and no testimony directly
connecting him to the crimes. The only evidence
presented at trial was circumstantial evidence that
proved a charge that was dismissed, Harassment. Also,
inadmissible and highly prejudicial evidence was
admitted to try and prove Kennedy was a Pedophile,
and possibly a killer.
The photographs used at trial were of a child's
rear end, and sometimes genitals, which did not alone,
show any type of "exploitative exhibition or sexual
conduct" required by the statute, and no evidence
was presented to support a critical element of the
crime,—that Kennedy had the intent to make and
distribute the photographs, "for the purpose of sexual
stimulation of the viewer."
Throughout the trial the prosecutor presented
evidence and argued how terrible Kennedy was for
harassing the Judge. Only one document in a letter,
in an envelope, stuck in the door to an office, suggested
child pornography was involved, and it did not mention
Kennedy. During the trial the prosecutor intentionally
presented inadmissible evidence that was inflammatory
and prejudicial, to try and prove Kennedy was a pedophile, and could be the one who murdered a young
girl. Excerpts from the trial record, presented herein,

28
show misconduct by the prosecutor throughout the
trial. This coupled with mistakes by the Judge, created
a situation where the trial was so infested with error,
petitioner's Due Process rights were violated.
Clearly established Supreme Court precedent
states that if a defendant is convicted when there is
no 'genuine' evidence supporting a critical element of
the offense charged, the defendant's fundamental
due process rights are violated. See Vachon v. New
Hampshire, 414 U.S. 478, 480 (1974). The Fourteenth
Amendment to the United States Constitution provides
that a state shall not "deprive any person of life,
liberty, or property, without due process of law." U.S.
Const. amend. XIV, § 1. In criminal proceedings, this
requires the state to "pro[ve] beyond a reasonable
doubt . . . every fact necessary to constitute the crime
with which [the defendant] is charged." In re Winship,
397 U.S. 358, 364, 90 S.Ct. 1068, 25 L.Ed.2d 368 (1970).
Kennedy was convicted of (7) counts of Sexual
Exploitation of a Minor in violation of A.R.S. § 13-3553
(each count represents one photograph). A required
element for a conviction of Sexual Exploitation of a
Minor is that the photographs show a minor engaged
in "exploitative exhibition" or other "sexual conduct."
The photographs alone did not show any "sexual
conduct" as defined in A.R.S. § 13-3551(10), and there
was no evidence to suggest the photographs were for
that purpose. Also, no evidence was presented to
support another critical element of the charge,—The
defendant's purpose for distributing the photographs
was for the "sexual stimulating of the viewer."
Arizona's sexual exploitation statute provides
definitions for the term 'exploitative exhibition' and
sexual conduct, which limits the scope of child pornog-

29

raphy material to being distributed 'for the purpose
of sexual stimulation of the viewer.' State v. Hazlett,
205 Ariz. 523, 531, ¶ 27, 73 P.3d 1258, 1266 (App.
2003). There was no evidence at trial the photographs
were distributed for that purpose. The photographs
were randomly distributed, and no witness testified
they were "sexually stimulated" when they viewed
them.
The State's own admitted theory of the case was
the photographs were used to harass and intimidate
a judge by implicate him in child pornography. The
State argued this was done "for the purpose of
getting revenge against the judge,"—who had ruled
against Kennedy in a divorce case.
After reading the charges and admonitions to
the jury, the Judge stated, "Bradley Kennedy is
charged with possessing, distributing, transporting
or exchanging Polaroid photographs of a nude, minor
child which were placed at more than one location in
Maricopa County." "The State is alleging that the
Defendant did these things . . . to make it appear that
the photographs . . . came from Judge Roberts, in an
effort by defendant to embarrass, harass, humiliate,
and/or tarnish the reputation of the Judge for adverse
rulings that he had entered against the defendant, in
1999." The prosecutor's first words in opening argument
were, "Revenge and retribution. This case is simply
about retaliation against a Judge who made some
adverse rulings . . . ."
In the recent case of May v. Ryan, 245 F.Supp.3d
1145 (D. Ariz. 2017) the Arizona District Court
explained the necessary element of 'Sexual Intent,'
when it addressed Arizona's child molestation laws,
" . . . absent sexual intent, all the conduct within the

30

sweep of the statute is benign, and much of it is constitutionally protected. The language of the elements
described benign and constitutionally protected behavior that could only become wrongful with sexual
intent. For example, the statute criminalizes diapering
and bathing infants and much other innocent conduct."
The District Court concluded, "Sexual intent remains
at the core of Arizona's child molestation law, and
the State must prove that element. Otherwise, the
law runs afoul of the Fourteenth Amendment's guarantees of due process and of proof of guilt beyond a
reasonable doubt." (The 9th Circuit affirmed the May
case on other grounds).
The evidence presented at trial did not prove the
photographs had sexual content, let alone, that
Kennedy had the required "sexual intent" to distribute
the photographs for the purpose of sexual stimulation
of the viewer,
Therefore, Kennedy's convictions on counts 1-7
are clear violates of the statute the convictions were
based on, and violations of Due Process.
III. THE CUMULATIVE EFFECT OF VARIOUS TRIAL
ERRORS SO INFECTED KENNEDY'S TRIAL WITH
UNFAIRNESS AS TO MAKE HIS CONVICTION A DENIAL
OF DUE PROCESS.
If a court determines that the cumulative effect
of various trial errors, including admission of evidence,
"so infected the trial with unfairness as to make the
resulting conviction a denial of due process," the
substantial and injurious effect standard is necessarily
satisfied and the conviction must be reversed. See
Thomas v. Hubbard, 273 F.3d 1164, 1179-80 (9th Cir.
2002) (quoting Donnelly v. DeChristoforo, 416 U.S.

31

637, 643 (1974)). The United States Supreme Court
has held "When the risk of confusion is so great as to
upset the balance of advantage, the evidence goes
out." See Shepard v. U.S., 290 U.S. 96, 104 (1933).
Furthermore, evidence having a dual tendency, inadmissible and gravely prejudicial for one purpose but
not objectionable for another if separately considered,
should be excluded from the jury. Id. at 103.
Where there are multiple trial errors, a balkanized,
issue-by-issue review is far less effective than analyzing
the overall effect of the errors in the context of the
evidence introduced at trial against the defendant.
United States v. Preston, 873 F.3d 829, 835 (9th Cir.
2017). This is because the cumulative effect of multiple
trial errors can violate due process even where no
single error would independently warrant reversal.
Id. The cumulative effect of the following trial errors
so infected Kennedy's trial with unfairness as to
make his resulting convictions a denial of due process:
A. Improper 404(b) Evidence.
The court allowed the State to present improper
Rule 404(b) evidence at Kennedy's trial. The State
filed "Motions for Admissibility of 404(b) Evidence,"
asking the court to allow it to introduce facts related
to Kennedy's "hatred" of Judge Roberts, which allegedly
motivated him to commit the crimes. The evidence
consisted of stickers, envelopes, and letters, which
the State's experts could not link to Kennedy, and
did not support the charges of Sexual Exploitation of
a Minor, and the Harassment charge had been dismissed. The evidence had no purpose other than to
prove Kennedy "hated" the Judge, which was not
relevant since the Harassment charge was dismissed.

32

The only reason the prosecutor could have for admitting
this evidence would be to mislead and confuse the
jury. The State also resorted to using inadmissible
inflammatory and highly prejudicial testimony to try
and prove the defendant was a Pedophile, and possibly
a killer. See (D) below.
The State's handwriting expert testified, there
was no connection to Kennedy found in the documents
submitted for examination. The State's DNA expert
testified, the DNA found on photographs was not
Kennedy's. Another State's DNA expert testified, he
could not find a connection between DNA found on
an envelope and Kennedy. The envelope contained
the letter, the only document, suggesting pornography
was being exchanged. A typewriter expert testified,
none of the typed documents matched the typewriter
taken from Kennedy's home. In other words,—None
of the documents, stickers, or photographs were
`physically' connected to Kennedy. Also, no testimony
directly connected Kennedy to these items, and only
a letter made reference to child pornography being
exchanged. The letter implicated two people, neither
of which was Kennedy.
Arizona Rule of Evidence 404(b) prohibits introduction of "Evidence of other crimes, wrongs, or acts,"
unless they are: [1] Logical and legally 'relevant.' [2]
The State proves by 'clear and convincing evidence'
the defendant committed the alleged prior act; and
[3] The court concludes the 'probative value of the
evidence is not substantially outweighed by the danger
of unfair prejudice.' Before admitting evidence of
extraneous criminal acts, the court must conclude
the evidence is admitted for a proper purpose and be
logically or 'legally relevant.' See State v. Mills, 196

33

Ariz. 269, 274, ¶ 24, 995 P.2d 705, 710 (App. 1999)
(citing State v. Hyde, 186 Ariz. 252, 921 P.2d 655
(1996)). The State must also show by 'clear and
convincing' evidence the defendant committed the
alleged prior act. See State v. Terrazaz, 189 Ariz.
580, 582, 583-84, 944 P.2d 1194, 1196, 1197-98 (1997).
See also Mills, 196 Ariz. at 275, ¶ 24, 995 P.2d at
711. The court must then conclude the 'probative
value of the evidence is not substantially outweighed
by the danger of unfair prejudice.' Mills, 196 Ariz. at
274-75, ¶ 24, 995 P.2d at 710-11.
The evidence presented at trial demonstrates,
the prosecutor intentionally subverted the entire
trial, by misleading the court and jury, by introducing
evidence that was inadmissible and highly prejudicial,
and violated Rule 404(b).
Confusion of Judge.
The judge asked the defense attorney, "Is it your
position that sexual stimulation must be positive?
You asked every witness if they were disgusted by it,
and they all said they were,—had a response stimulated
by the pictures. You're arguing that sexual stimulation
has to be a pleasurable positive stimulation?" Defense
replied, "I am." RT 8/29/08, at 181-182.
Confusion of the Jury.
Jury question: "Based on the definition of 'exhibition,' do we have to find beyond a reasonable doubt
that Brad Kennedy's 'intent' was for the purpose of
sexual stimulation of the viewer?" The Court
responded, "Please rely on the jury instructions in
answering this question." RT 9/31/06, at 3-4. The jury

34

was left in limbo on a critical element of the crime that
required a finding of beyond a reasonable doubt.
Prosecutor vouching.
The prosecutor stated: "I use the word pervert
instead of pedophile. From my experience as a sex
crimes prosecutor, I know that most all child molesters
are pedophiles, so I am not going to use the word pedophile; I am not going to use the word child molester, I
am going to use the word pervert because I am referring to people who get off from looking at photographs
of pornography." RT 8/29/06 at 185.
Prosecutorial Misconduct.
The prosecutor introduce and or participated in
the jury hearing inadmissible, highly prejudicial extraneous evidence, in two instances. The First instance
is where Lt. Tucker testified. See his testimony on page
11, last para. The second instance is where Sgt Bailey
testified in response to a question from the jury. See
his testimony on page 19, first para.
IV. KENNEDY'S SENTENCE IS A VIOLATION OF THE 8TH
AMENDMENT'S PROHIBITION AGAINST CRUEL &
UNUSUAL PUNISHMENT.
The Arizona Court of Appeals and the Federal
District Court, and 9th Circuit Court of Appeals
rejection of Kennedy's Eighth Amendment claim,
was contrary to clearly established Supreme Court
precedent. Prior to sentencing, Kennedy moved the
court to find that sentencing him to the mandatory
consecutive sentences required by A.R.S. § 13-604.01
constituted cruel and unusual punishment, and asked
the court to impose concurrent sentences. The Presen-

35

tence Report even recommended concurrent sentences.
The trial court denied the request and sentenced
Kennedy to a total of 119 years.
The Eighth Amendment "forbids . . . extreme sentences that are 'grossly disproportionate' to the crime."
Harmelin v. Michigan, 501 U.S. 957, 1001 (1991). In
Ewing v. Cal., 538 U.S. 11 (2003), the Supreme Court
recognized, the Eighth Amendment contains a narrow
proportionality principle that applies to noncapital
sentences.' 538 U.S. at 20. The Supreme Court stated
the Eighth Amendment's ban on cruel and unusual
punishments . . . "prohibits sentences that are disproportionate to the crime committed," and the "constitutional principle of proportionality has been recognized
explicitly in this Court for almost a century." Id., at
284, 286.

36

CONCLUSION
Even if it is assumed Kennedy did the photographs, envelopes, letters, and stickers, and placed
them where they were found,—The photographs themselves did not depicted any type of sexual activity
required for the crime, regardless of showing the
child's genitals, and—There was no evidence, that
when he distributed the photographs. he had the
necessary intended or purpose of—sexual stimulation
of the viewer. To the contrary, the only thing the
evidence proved was that he harassed a Judge. Also,
the prosecutor intentionally used inadmissible and
highly prejudicial evidence to try and prove Kennedy
was a pedophile, and could be a killer. Therefore, it is
respectfully requested the Court grant Kennedy review.
Respectfully submitted,
ANDERS ROSENQUIST
COUNSEL OF RECORD
FLORENCE BRUEMMER
ROSENQUIST & ASSOCIATES
42104 N. VENTURE DRIVE, STE. A122
ANTHEM, AZ 85086
(480) 861-7115
ROSENQUISTLEGAL@GMAIL.COM
COUNSEL FOR PETITIONER
MARCH 19, 2020

